Audit Report




OIG-10-044
SAFETY AND SOUNDNESS: Material Loss Review of Vineyard
Bank, National Association
July 13, 2010




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Causes of Vineyard’s Failure .........................................................................         4
      Vineyard Pursued an Aggressive Growth Strategy and Was Highly
         Concentrated in CRE Loans .................................................................               4
      Vineyard Relied on Costly and Volatile Funding to Fuel Growth ....................                           6
      Vineyard’s Underwriting and Credit Risk Management Were Unsound ...........                                  7
      Vineyard’s Board Did Not Exercise Its Authority Until It Was Too Late ..........                             9

    OCC’s Supervision of Vineyard .....................................................................         11
      OCC’s Process to Approve Vineyard’s 2006 Conversion to a National
         Bank Charter Was Flawed ...................................................................            13
      OCC’s 2007 Examination Identified Increased Concentration But No
         Forceful Action Was Taken..................................................................            17
      OCC Took Enforcement Action in July 2008 ..............................................                   19
      OCC Began PCA After Vineyard’s Capital Levels Fell ...................................                    20
      OCC Lessons-Learned Review Is Not Yet Complete .....................................                      21

    Conclusions and Recommendations ............................................................... 22

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              24
    Appendix     2:      Background..........................................................................   27
    Appendix     3:      Glossary of Terms ................................................................     30
    Appendix     4:      Chronology of Significant Events. ...........................................          36
    Appendix     5:      Vineyard Bank, N.A., Examinations, Significant
                         Issues, and Enforcement Actions ............................................           39
    Appendix     6:      Prior Material Loss Review Recommendations ..........................                  46
    Appendix     7:      Management Response .........................................................          50
    Appendix     8:      Major Contributors to This Report ...........................................          51
    Appendix     9:      Report Distribution. ...............................................................   52

Abbreviations

    ALLL                 allowance for loan and lease losses
    CEO                  chief executive officer
    CRA                  Community Reinvestment Act

                         Material Loss Review of Vineyard Bank, National Association (OIG-10-044)         Page i
CRE    commercial real estate
DFI    California Department of Financial Institutions
FHLB   Federal Home Loan Bank
FDIC   Federal Deposit Insurance Corporation
IT     information technology
MOU    memorandum of understanding
MRA    matter requiring attention
OCC    Office of the Comptroller of the Currency
OIG    Office of Inspector General
PCA    prompt corrective action
ROE    report of examination




       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page ii
                                                                                           Audit
OIG
The Department of the Treasury
                                                                                           Report
Office of Inspector General




                        July 13, 2010

                        John C. Dugan
                        Comptroller of the Currency

                        This report presents the results of our review of the failure of
                        Vineyard Bank, N.A. (Vineyard), headquartered in Corona,
                        California, and of the Office of the Comptroller of the Currency’s
                        (OCC) supervision of the institution. OCC approved Vineyard’s
                        conversion from a state-chartered bank to a national bank in May
                        2006. OCC closed Vineyard and appointed the Federal Deposit
                        Insurance Corporation (FDIC) as receiver just over 3 years later on
                        July 17, 2009. Section 38(k) of the Federal Deposit Insurance Act
                        mandated this review because of the magnitude of the loss to the
                        Deposit Insurance Fund resulting from Vineyard’s failure. 1 As of
                        December 31, 2009, FDIC estimated that the loss to the Deposit
                        Insurance Fund would be $597 million.

                        Our objectives were to determine the causes of Vineyard’s failure
                        and assess OCC’s supervision of the bank, including
                        implementation of the prompt corrective action (PCA) provisions of
                        section 38(k). To accomplish these objectives, we reviewed the
                        supervisory files and interviewed key OCC and FDIC officials. We
                        conducted our fieldwork from August 2009 through February
                        2010. Appendix 1 contains a more detailed description of our
                        material loss review objectives, scope, and methodology.

                        We have also included several other appendices to this report.
                        Appendix 2 contains background information on Vineyard and
                        OCC’s supervision and enforcement processes. Appendix 3 is a
                        glossary of terms used in this report. These terms are underlined
                        and, in the electronic version of the report on our Web site,

1
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.

                        Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 1
               hyperlinked to the glossary. Appendix 4 contains a chronology of
               significant events related to the bank’s history and OCC’s
               supervision of the institution. Appendix 5 provides bank
               examination results and information on enforcement actions.
               Appendix 6 shows recommendations by the Treasury Office of
               Inspector General (OIG) from material loss reviews of failed OCC-
               regulated institutions completed since November 2008.


Results in Brief
               Vineyard failed because of significant losses in its commercial real
               estate (CRE) loan portfolio, which included loans for CRE
               mortgages, residential tract construction, land development, and
               commercial building. Vineyard reported that its net operating losses
               exceeded $31 million in 2007 and $127 million in 2008.

               Vineyard pursued an aggressive growth strategy beginning in
               2001. Its total assets grew by more than $1.9 billion from 2001
               through 2007. Vineyard’s rapid growth during this time was largely
               attributable to an increase and high concentration in CRE
               mortgages, and construction and land development loans. While
               pursuing this rapid growth, Vineyard’s board and management did
               not adequately control concentration risk or ensure that credit
               underwriting and administrative controls were adequate. The weak
               controls led to deterioration in underwriting standards, including the
               failure to perform adequate financial analysis of borrowers, and the
               origination of high-risk loans, such as nonrecourse loans, and loans
               with high loan-to-value ratios. These deficiencies were made worse
               by the decline in the real estate market and borrowers’ inability to
               pay off loans as they matured. A majority of these loans were for
               properties located in southern California, which experienced a
               significant decline in real estate values during this period.

               OCC’s supervision of Vineyard did not prevent a material loss to
               the Deposit Insurance Fund. In May 2006, OCC approved
               Vineyard’s conversion to a nationally chartered bank after OCC
               conducted a preconversion examination to determine if the bank’s
               application for charter conversion should be approved. During the
               examination, OCC examiners identified significant concerns with
               Vineyard’s high concentration in CRE loans. Because of the

               Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 2
                      significant weaknesses identified by OCC examiners during the
                      preconversion examination, we believe that OCC should have
                      deferred approval of Vineyard’s conversion to a nationally chartered
                      bank until those weaknesses had been addressed.

                      In April 2007, during OCC’s first full scope examination after
                      conversion, OCC again identified concerns with Vineyard’s large
                      concentration in CRE loans but did not include any matters
                      requiring attention (MRA) instructing the bank to reduce its high-
                      risk concentration. In its reports of examination (ROE) for the 2006
                      preconversion examination and the 2007 full scope examination,
                      OCC assigned Vineyard a CAMELS composite rating of 2. OCC did
                      not take forceful action until July 2008, when it downgraded
                      Vineyard’s CAMELS composite rating to a 4 and entered into a
                      consent order with the bank. By that time, however, Vineyard’s
                      problems had become too large and too severe for the bank to
                      resolve.

                      We concluded that as Vineyard’s capital levels fell due to the
                      significant losses in its CRE loan portfolio, OCC imposed the
                      required restrictions and directives under the PCA provisions. The
                      PCAs, however, did not prevent Vineyard’s failure or a material
                      loss to the Deposit Insurance Fund.

                      Vineyard is the second OCC failed bank we reviewed where the
                      bank failed within a relatively short timeframe after it was
                      converted to a nationally chartered bank. 2 Based on our review of
                      the Vineyard charter conversion process, we reaffirm our prior
                      recommendations that OCC (1) determine that banks seeking
                      conversions satisfactorily address significant deficiencies before
                      approval and (2) formalize its process for second level reviews of
                      charter conversions. We are not making any new recommendations
                      from our material loss review of Vineyard.

                      In a written response, OCC acknowledged our reaffirmation of the
                      two prior recommendations relating to the charter conversion
                      process. OCC also stated that appropriate steps have been taken to


2
 The first failed bank where we reported on charter conversion issues was Silverton Bank, N.A. (OIG,
Safety and Soundness: Material Loss Review of Silverton Bank, N.A., OIG-10-033 (Jan. 22, 2010)).

                      Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 3
              address the recommendations. OCC’s full response is provided as
              Appendix 7.


Causes of Vineyard’s Failure
              Vineyard’s failure resulted primarily from significant losses in its
              CRE loan portfolio. The bank’s operating losses exceeded
              $31 million in 2007 and $127 million in 2008. Beginning in 2001,
              Vineyard’s board and management pursued an aggressive growth
              strategy designed to increase the bank’s assets but, ultimately did
              not sufficiently control concentration risk or ensure that adequate
              controls were implemented for CRE lending, including controls over
              credit underwriting and administration. The effects of Vineyard’s
              inadequate controls over concentration risk, credit underwriting,
              and administration were made worse by the decline in the real
              estate market. The majority of Vineyard’s CRE loans during the
              period of its aggressive growth were for properties located in
              southern California, which experienced a significant decline in real
              estate values.

              Vineyard Pursued an Aggressive Growth Strategy and Was Highly
              Concentrated in CRE Loans

              Vineyard’s board and management embarked on an aggressive
              growth strategy for the bank in 2001, primarily by originating CRE
              loans in southern California. From 2001 through 2007, Vineyard
              increased its CRE loans (consisting of land and development loans
              and CRE mortgages) from $86 million to $1.6 billion and its total
              loan portfolio from $138 million to $2.1 billion. In 2008, however,
              its loan portfolio declined when Vineyard’s board and management
              ceased lending in response to the economic downturn. Figure 1
              illustrates the rapid growth and composition of Vineyard’s overall
              loan portfolio from 2001 through 2007, and its subsequent decline
              during 2008.




              Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 4
          Figure 1. Growth and Composition of Vineyard’s Loan Portfolio, 2001-2008
                    (in millions)




$2,500               Construction and land development
                                                                            $2,127
                     Commercial real estate mortgages             $1,902
                     Other loans (residential mortgages,
$2,000               commerical loans, and consumer loans)                           $1,688
                                                                            $497
                                                        $1,373    $458

$1,500                                                                               $459
                                            $1,027                          $599
                                                        $377      $531

$1,000                                                                               $498
                                             $283
                                   $597                 $322

                                             $217
                                   $105                                    $1,031
 $500                    $253      $154                           $913
              $138                                      $674                         $731
                         $50                 $527
                         $93       $338
               $51
               $53
               $33      $110
     -
            2001      2002       2003      2004      2005        2006      2007     2008

         Source: OIG analysis of Vineyard’s Call Reports.


         Vineyard’s excessive concentration in CRE loans, coupled with the
         poor underwriting of loans resulted in substantial losses for the
         bank when conditions in the southern California real estate market
         deteriorated. The poor quality of the CRE loans also led to
         diminished capital and strained liquidity for the bank.

         In OCC’s 2008 ROE, examiners criticized Vineyard’s chief
         executive officer (CEO) for allowing the bank’s CRE loan
         concentrations to reach unsafe and unsound levels. Examiners also
         criticized Vineyard’s board for not reacting quickly enough to
         restrict the bank’s growth and concentrations. From 2001 through
         2007, Vineyard’s CRE loans as a percentage of the bank’s total
         capital increased from an already risky 380 percent to 626 percent.
         As shown in figure 2, Vineyard’s CRE loans as a percentage of its
         total capital greatly exceeded that of its peer banks. (It should be
         noted that the dramatic increase in the gap from 2007 to 2008

         Material Loss Review of Vineyard Bank, National Association (OIG-10-044)           Page 5
 was due to a 49 percent decline in Vineyard’s Tier I Capital level as
 losses mounted; by then its loan portfolio was shrinking.)

  Figure 2. CRE Loans as a Percentage of Total Capital, 2001-2008
1000%
                  Vineyard
900%
                  Peer median                                                     874%
800%

700%                                                          625%      626%
                                                      587%
600%                          557%          582%
                    489%
500%
           380%
400%
                                                                        381%    404%
300%                                                 336%      365%
                                           312%
                       280%       296%
200%       264%

100%

  0%
          2001      2002        2003     2004      2005      2006     2007     2008

 Source: OIG analysis of Vineyard’s Uniform Bank Performance Reports.


 In November 2007, with the deteriorating conditions of the real
 estate market and increasing problem loans, Vineyard’s board
 directed the bank to cease originating CRE loans and to reduce the
 number of CRE loans in its portfolio. Despite the board’s effort, the
 concentration of CRE loans as percentage of capital continued to
 increase as losses began to erode Vineyard’s capital.

 Vineyard Relied on Costly and Volatile Funding to Fuel Growth

 To finance its rapid growth, Vineyard relied heavily on more costly
 certificates of deposits and wholesale funding, which included
 brokered deposits and Federal Home Loan Bank (FHLB) loans. The
 bank reduced its size in 2008, but brokered deposits and FHLB
 loans increased in order to replace other funding sources.
 Certificates of deposit and brokered deposits together represented
 approximately 46 percent of total deposits in December 2007 and
 78 percent in December 2008.


 Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 6
                       In July 2008, OCC entered into a consent order with Vineyard to
                       address the bank’s deficiencies in management, capital, asset
                       quality, earnings, and liquidity. The consent order resulted in the
                       reclassification of Vineyard’s capital level from well-capitalized to
                       adequately capitalized, which prevented it from accepting,
                       renewing, or rolling over brokered deposits without a waiver from
                       FDIC. This PCA-driven restriction on the use of brokered deposits
                       significantly impacted Vineyard’s liquidity.

                       In an OCC report on its August 2008 quarterly review of Vineyard,
                       examiners wrote that Vineyard’s liquidity levels and funds
                       management practices were so critically deficient that the bank’s
                       continued viability was threatened. In its 2009 examination, which
                       started in April 2009, OCC examiners wrote in their workpapers
                       that they had serious doubts about Vineyard’s ability to repay
                       $182 million in brokered deposits scheduled to mature later in
                       2009, approximately $180 million in outstanding FHLB loans with
                       maturities of less than 1 year, and $394 million in certificates of
                       deposit scheduled to mature in mid-2009.

                       Vineyard’s core deposit base also was extremely volatile because
                       of negative publicity brought on by both the failure of IndyMac
                       Bank and a proxy contest that publicized Vineyard’s financial and
                       management problems. From June 2008 to June 2009, Vineyard’s
                       core deposits decreased by $470 million. To attract and replace the
                       deposits, Vineyard offered interest rates above prevailing market
                       rates, in violation of the PCA restrictions imposed by the July 2008
                       consent order. 3 On August 26, 2008, OCC ordered Vineyard to
                       cease offering those high interest rates. (Vineyard complied with
                       OCC’s order.)

                       Vineyard’s Underwriting and Credit Risk Management Were
                       Unsound

                       In the 2006 through 2008 examinations, OCC examiners found
                       that Vineyard did not consistently obtain sufficient information
                       about the financial condition of borrowers, principals, and


3
 Under 12 C.F.R. § 337.6, banks falling below the well-capitalized level may not accept, renew, or roll
over any brokered deposit or solicit deposits with an effective yield more than 75 basis points above the
prevailing market rate.

                       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 7
guarantors when underwriting loans. In its 2007 and 2008 ROEs,
OCC directed Vineyard to improve its financial analyses during the
loan underwriting process. Inadequate financial analysis increased
Vineyard’s credit risk because the ability of the bank’s borrowers
to repay their loans was contingent on their ability to sell or
otherwise derive income from property that served as collateral for
those loans. Despite OCC’s directions, Vineyard failed to improve
its financial analyses.

Vineyard’s credit risk significantly increased and its underwriting
became even more liberal during the tenure of a chief lending
officer that Vineyard hired in March 2007 and terminated in May
2008. The chief lending officer generated a significant volume of
poorly underwritten CRE loans (some examples are more fully
described below). During the same time, Vineyard’s board noted
concern with the decline in the real estate market and the need to
reduce the risk level of the bank’s loan portfolio, culminating in its
November 2007 directive to cease CRE loan originations and
reduce the loan portfolio.

As an example of poor loan quality noted by OCC, the chief lending
officer made four separate loans to one borrower totaling $22.5
million in September 2007. The loans were to finance the purchase
and rehabilitation of 4 apartment complexes in states far from
Vineyard’s normal geographic lending area. Additionally, 3 of the 4
apartment complexes were underperforming, with high vacancies
and poor property management, when the loans were approved.
OCC had the following concerns about the loans:

•   They were referred to the bank by a broker with whom
    Vineyard lacked prior experience. The chief lending officer
    waived bank policy prohibiting this practice.
•   Three of the four loans had loan-to-value ratios exceeding
    Vineyard’s policy limit of 75 percent.
•   Vineyard’s cash flow analysis of the borrowers’ financial
    strength at the time of the loans’ origination was weak.

By April 27, 2009, Vineyard had charged off $3.3 million in losses
involving these loans and determined that losses could increase to
as much as $10 million. It should also be noted that the four loans


Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 8
                       had been approved by Vineyard’s loan committee, indicating a
                       weakness in loan committee’s review of the loans. 4

                       In OCC’s 2008 ROE, examiners noted that many of the loans
                       originated by the chief lending officer were partial- or nonrecourse,
                       without strong mitigating factors to offset the lack of guarantees.
                       Many of those loans had high loan-to-value ratios, and
                       approximately half of the loans had been referred by brokers with
                       whom the bank lacked prior experience. The examiners concluded
                       that Vineyard’s credit risk management practices were weak and
                       that the bank needed to

                       •   manage concentrations of credit to ensure prudent risk
                           diversification;
                       •   establish appropriate underwriting for granting nonrecourse
                           loans, including higher debt service ratios, lower loan-to-value
                           ratios, larger cash equity requirements, and financially capable
                           sponsors with incentives to support the debt;
                       •   ensure accurate and timely loan grading in all portfolio
                           segments;
                       •   improve financial and cash flow analysis;
                       •   provide meaningful problem loan reports; and
                       •   improve the allowance for loan and lease loss (ALLL) analysis.

                       Vineyard’s Board Did Not Exercise Its Authority Until It Was Too
                       Late

                       As Vineyard grew, OCC and the Federal Reserve Bank of San
                       Francisco (FRB San Francisco) became increasingly concerned
                       about the capabilities and competencies of the boards of Vineyard
                       and its holding company, which consisted of the same individuals. 5
                       Several board members had been directors since before 2000,
                       when Vineyard was a relatively small community bank. By 2005,
                       Vineyard had grown into a larger, more complex, highly
                       concentrated institution. In 2005 and 2006, FRB San Francisco
                       questioned the ability of Vineyard’s board to effectively direct a
4
  The loan committee was comprised of senior managers and experienced loan officers. The loan
committee normally only considers loans that exceed the lending authority of the loan officer, or loans
that require special attention due to the applicant’s credit history or other factors.
5
  Vineyard is wholly owned by its holding company. Vineyard’s holding company was regulated and
annually examined by FRB San Francisco.

                       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)    Page 9
bank of Vineyard’s size, scope, and complexity. To address these
concerns, FRB San Francisco required Vineyard’s board to identify
and address gaps in its directors’ skills and competencies through
continuing education or recruitment of individuals with the
specialized skills and competencies needed. Vineyard’s board
adopted a resolution in May 2005 to seek a new outside director.
A new director was added in September 2006. OCC examiners,
still concerned about the board qualifications, recommended in the
2007 ROE that the board continue its efforts to improve its
qualifications for overseeing Vineyard given the bank’s size, scope,
and direction.

During most of its aggressive growth period, Vineyard’s board
supported the CEO’s growth strategy. Despite the declining real
estate market, the CEO planned to continue the bank’s original goal
of increasing commercial construction loans, with the aim of
becoming a $3 billion regional bank by 2010. In late 2007,
however, the board became increasingly concerned about
Vineyard’s overall risk level and sought to restrict growth and
reduce risk by tightening underwriting standards, ending
construction and land development lending, and reducing its asset
base and concentration limits. The CEO did not support the board’s
plan to limit growth, which ultimately led the board to force the
CEO’s resignation in January 2008.

In February 2008, the now former CEO and one shareholder of the
bank’s holding company initiated a proxy contest to gain control of
Vineyard by nominating an alternate slate of seven directors to
replace the existing board and return the former CEO to his
previously held position. Five of the seven directors from the
alternate slate and two incumbent directors were elected. OCC,
however, informed the board in a letter dated July 31, 2008, that
the former CEO could not return to his previous position.

OCC officials told us that the proxy contest consumed valuable
time that the board could have used to address the mounting loan
losses and capital adequacy, and it complicated efforts to fill
important management vacancies, such as the position of CEO. In
addition, the proxy contest, along with the July 2008 consent
order and failure of IndyMac Bank (also located in southern
California), resulted in negative publicity for Vineyard. This negative

Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 10
             publicity, in turn, led to significant deposit withdrawals and
             hindered the bank’s efforts to raise capital. Although Vineyard’s
             new directors were more experienced than the members they
             replaced, they were unable to save Vineyard because of the rapid
             depletion of the bank’s capital. While the significant losses in
             Vineyard’s CRE loan portfolio were the primary cause of its failure,
             the bank became nearly insolvent in terms of liquidity as a result of
             deposit outflows in mid-2008.


OCC’s Supervision of Vineyard
             During the approximately 3 years, 2 months that it supervised
             Vineyard, OCC was unable to prevent a material loss to the Deposit
             Insurance Fund. OCC identified Vineyard’s growth and high-risk
             concentration in CRE loans before approving Vineyard’s conversion
             to a national bank charter in May 2006 but believed that
             management and the board were well aware of the risks and had
             implemented adequate control systems. OCC also identified
             concerns with the CRE concentration in 2007 during its first full-
             scope examination. Despite its concerns, however, OCC assigned
             Vineyard a CAMELS composite rating of 2 and did not require the
             bank to reduce its high-risk concentration. OCC did take forceful
             action in July 2008 by downgrading Vineyard’s CAMELS
             composite rating to 4 and entering into a consent order with the
             bank. By then, the bank’s problems had become too large and too
             severe to resolve.

             We also noted a weakness in the scope of OCC’s preconversion
             examination. Specifically, OCC approved Vineyard’s charter
             conversion application despite the significant concerns regarding
             the CRE concentration identified by OCC examiners during the
             preconversion examination. Additionally, OCC was unaware that
             FDIC, Vineyard’s federal banking regulator at the time, had in 2005
             directed the bank to adopt a board resolution to restrict asset
             growth.

             Once OCC concluded that strong action was needed to address
             Vineyard’s problems, it imposed PCA-required restrictions on
             Vineyard through a July 2008 consent order. Among other things,


             Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 11
                       OCC classified the bank’s capital level to adequately capitalized
                       and imposed restrictions consistent with that classification.
                       Table 1 summarizes the results of OCC’s full-scope safety and
                       soundness examinations of Vineyard and enforcement actions
                       taken. 6 Appendix 5 provides details of MRAs, corrective actions,
                       and other issues noted during the examinations.

                Table 1. Summary of OCC’s Vineyard National Bank Examinations and Enforcement
                         Actions
                                                                       Examination Results
                                                                           Number of
                Date               Assets        CAMELS        Number      corrective         Enforcement
                started            (millions)    rating        of MRAs     actions            actions
                3/6/2006a
                (preconversion)     $1,705       2/222222         N/A            3            None
                4/2/2007
                (full scope)        $2,251       2/222222          2             1            None
                                                                                              Consent order,
                3/31/2008                                                                     effective
                (full scope)        $2,340       4/444432          9             4            7/22/2008
                                                                                              Consent order
                7/23/2008b          $2,340       5/455553         N/A           N/A           remains in place
                                                                                              Consent order
                11/03/2008b         $2,089       5/545554         N/A           N/A           remains in place
                                                                                              Consent order
                4/27/2009 b         $2,015       5/555555         N/A           N/A           remains in place
                Source: OCC ROEs and Vineyard call reports.
                a
                  The scope of the preconversion examination of Vineyard was similar to the requirements of a
                full-scope examination. The report on the preconversion examination identified corrective actions
                that Vineyard was to take; however, these actions were not identified as MRAs as OCC does not
                use such a designation in preconversion examination documents.
                b
                  OCC performed a periodic monitoring review. MRAs are generally not made in such reviews.




6
  We concluded that OCC conducted its examinations of Vineyard and provided oversight through off-
site monitoring in accordance with the timeframes specified in its examination policy. The scope of
OCC’s examinations were comprehensive. However, the workpapers supporting the examinations
generally lacked clarity, specificity, and support for many of the examination procedures performed and
many of the conclusions reached. We made similar observations about OCC examination workpapers in
our material loss reviews of the failed National Bank of Commerce, First National Bank of Nevada, and
First Heritage Bank, N.A.

                       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)          Page 12
                         OCC’s Process to Approve Vineyard’s 2006 Conversion to a
                         National Bank Charter Was Flawed

                         During the preconversion examination, OCC examiners were
                         concerned with the bank’s aggressive growth and high
                         concentration, but determined that management and the board had
                         implemented reasonable underwriting standards and satisfactory
                         risk management practices to address the high concentration. OCC
                         also determined that board and management oversight was
                         satisfactory, financial performance was good, liquidity was
                         adequate, and capital was sufficient to support the projected
                         growth and risk profile. As a result, OCC approved the conversion.
                         We believe that OCC should have deferred approval until the
                         weaknesses identified had been satisfactorily addressed and their
                         resolution validated. At the very least, OCC should have imposed
                         conditions to restrict Vineyard’s growth and concentration when
                         OCC approved the bank’s conversion. Furthermore, OCC’s
                         preconversion examination failed to identify the existence of a
                         2005 board resolution that restricted the bank’s continued growth.

                         OCC’s Charter Conversion Policies and Procedures

                         OCC guidance outlines the application process and decision criteria
                         for approval of the conversion of institutions to nationally chartered
                         banks. 7 In determining whether to approve an application for
                         conversion, OCC considers the applying institution’s

                         •   condition and management, including compliance with
                             regulatory capital requirements;
                         •   conformance with statutory criteria;
                         •   adequacy of policies, practices, and procedures that parallel
                             OCC’s minimum policies and procedures; and
                         •   Community Reinvestment Act (CRA) record of performance.

                         OCC may deny an institution’s conversion application because of

                         •   safety and soundness issues;
                         •   inadequate capital;
                         •   financial condition concerns;

7
    Comptroller’s Licensing Manual, Conversions (April 2004).

                         Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 13
                        •   significant CRA or compliance concerns;
                        •   ownership issues;
                        •   inconsistency with applicable laws, regulations, or OCC policy;
                        •   attempted circumvention of supervisory action by the
                            applicant’s current regulator; or
                        •   failure by the applicant to provide requested information that
                            would allow OCC to make an informed decision.

                        The guidance also states that if significant weaknesses exist in
                        financial and managerial factors, the conversion normally will be
                        denied.

                        OCC may also impose special conditions for approvals to

                        •   protect the safety and soundness of the bank;
                        •   prevent conflicts of interest;
                        •   provide customer protections;
                        •   ensure that approval is consistent with the statutes and
                            regulations; or
                        •   provide for other supervisory or policy considerations.

                        OCC Identified Significant Concentration Concerns at Vineyard But
                        Its Preconversion Examination Missed Certain Critical Information
                        About the Bank’s Operations

                        From 1981 to 2001, Vineyard was chartered as a national bank
                        and supervised by OCC. In late 2000, Vineyard, while under a
                        different management team, entered into a memorandum of
                        understanding (MOU) with OCC to address its poor credit
                        administration at the time. 8 While still under the MOU with OCC,
                        Vineyard switched to a state charter in 2001 that placed it under
                        the regulatory purview of the California Department of Financial
                        Institutions (DFI) and the FDIC. In December 2005, Vineyard
                        applied with OCC to convert back to a national bank charter.
                        Vineyard’s board believed that many of the bank’s strategic
                        endeavors were better suited to a national charter.

                        OCC conducted a preconversion examination of Vineyard in March
                        2006 to determine if the bank’s application for charter conversion

8
    An MOU is an informal enforcement action. As such, it is not made public by OCC.

                        Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 14
                      should be approved. Because the last full-scope examination
                      conducted by DFI and FDIC was in April 2005, OCC examiners
                      expanded the preconversion examination to meet the requirements
                      of a full-scope examination. 9

                      OCC examiners noted that Vineyard was pursuing an aggressive
                      growth strategy and projected growth of 33 percent, 25 percent,
                      and 20 percent, respectively over the next 3 years, but determined
                      that growth projections were reasonable in light of the overall
                      satisfactory risk management systems. Examiners also determined
                      that the Vineyard’s CRE loan portfolio at 587 percent of capital
                      was high. In the preconversion examination report, the examiners
                      cautioned Vineyard that the high concentration could negatively
                      affect the bank’s asset quality and liquidity if the real estate market
                      declined. They also stated that management’s ability to react to
                      potential declines in real estate and the resulting problem loans was
                      unproven. Examiners identified concerns about the real estate
                      appraisal and CRE stress testing process and a compliance issue on
                      foreign wire activity that warranted attention and obtained written
                      representations from management to address those issues. As
                      noted previously, OCC determined that board and management
                      oversight of the lending area was satisfactory and that capital
                      levels supported the risk profile. As a result, OCC assigned
                      Vineyard a CAMELS composite rating of 2 and upgraded the
                      management component rating to 2 from 3.

                      While the preconversion examination revealed troubling information
                      about Vineyard, it did not identify a DFI/FDIC-required board
                      resolution placing limits on the bank’s growth. In 2004, DFI and
                      FDIC entered into an MOU (an informal enforcement action) with
                      Vineyard. The purpose of the MOU was to address the regulators’
                      concerns about the bank’s aggressive growth, high concentration
                      in CRE loans, inadequate risk management, and questionable credit
                      administration. DFI and FDIC’s joint 2005 ROE stated that while
                      Vineyard had made much needed improvements, the bank was only
                      in partial compliance with the provisions of the MOU; that the bank
                      had significant asset growth, concentration risk, and credit

9
  The Comptroller’s Handbook, Bank Supervision Process, states that a converted national bank must
receive a full-scope, on-site examination within 12 months from the date of its last full-scope
examination by the prior federal banking agency.

                      Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 15
administration practices that remained of concern; and that
Vineyard needed to take additional measures to address
deficiencies in those areas. FDIC assigned Vineyard a management
component rating of 3 but upgraded Vineyard’s CAMELS
composite rating to a 2 from a 3.

At this point, Vineyard’s CEO vigorously opposed continuation of
the MOU as well as the assigned CAMELS management component
rating of 3 for the examination. DFI and FDIC later terminated the
MOU in May 2005, even though Vineyard had only partially
complied with its provisions. In its place, DFI and FDIC allowed the
bank to adopt a board resolution in May 2005 that contained many
of the same provisions contained in the MOU.

Although OCC examiners were aware of the 2004 MOU and its
subsequent termination, they were not aware of the board
resolution that replaced the MOU. This was surprising in that there
were at least three separate mentions of the resolution in the
minutes of board meetings. Additionally, the inspection report
issued by FRB San Francisco for its 2005 examination of
Vineyard’s holding company stated that the MOU was replaced
with a board resolution. These materials were available to the OCC
examiners during their preconversion examination.

According to an OCC official, it was his understanding that DFI and
FDIC terminated the MOU because Vineyard’s condition had
improved as evidenced by the composite rating of 2. The official
told us that if he had been aware of the board resolution and the
fact that the bank had only partially complied with both the MOU
and board resolution, this information may have affected the
CAMELS ratings OCC assigned from its preconversion examination.

OCC approved Vineyard’s conversion in May 2006. As a condition
of the conversion, OCC required that the bank provide advance
written notice and obtain OCC’s written approval of any intent to
significantly deviate from or change its current business plan. OCC




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 16
                       did not impose conditions restricting the bank’s planned growth
                       and concentration. 10

                       Given the examiners findings and concerns, we believe that it was
                       a mistake for OCC to approve Vineyard’s charter conversion before
                       the bank’s weaknesses had been satisfactorily addressed and their
                       resolution validated. At the very least, OCC should have imposed
                       conditions to restrict the bank’s growth and concentration when
                       OCC approved the bank’s conversion.

                       OCC’s 2007 Examination Identified Increased Concentration But No
                       Forceful Action Was Taken

                       In the 2007 ROE for OCC’s first full-scope examination of Vineyard
                       after conversion, OCC examiners again expressed concern about
                       asset quality because of the bank’s high concentration in CRE loans
                       and the weakening real estate market. At the time of the
                       examination, the bank’s combined CRE loans had grown from 587
                       percent of capital to 628 percent of capital. Nevertheless, OCC
                       examiners determined that Vineyard’s credit administration
                       practices largely conformed to interagency guidance on CRE
                       concentration issued in December 2006. 11 While this guidance did
                       not set specific concentration limits, it did provide a number of
                       high-level indicators to identify institutions potentially exposed to
                       concentration risk, including:

                       • total reported loans for construction, land development, and
                         other land representing 100 percent or more of an institution’s
                         total capital; or
                       • total CRE loans representing 300 percent or more of the
                         institution’s total capital, and the outstanding balance of the

10
   One of the provisions of the May 2005 board resolution that carried over from the terminated MOU
with DFI and FDIC limited Vineyard’s future asset growth to 25 percent a year. Vineyard’s business
plan submitted to OCC projected growth rates in its total assets of 33 percent, 25 percent, and 20
percent for 2006, 2007, and 2008, respectively. OCC accepted Vineyard’s business plan during its
2006 pre-conversion examination and while the growth rate for 2006 (33 percent) varied from the 25
percent called for in the board resolution, we did not consider this variance significant. Nevertheless, we
believe that the existence of the board resolution was still a critical piece of information that OCC
should have considered in approving the conversion.
11
   OCC, Federal Reserve, and FDIC, “Concentrations in Commercial Real Estate Lending, Sound Risk
Management Practices” (Dec. 12, 2006).

                       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)    Page 17
   institution’s CRE loan portfolio has increased by 50 percent or
   more during the prior 36 months.

From 2006 through 2007, Vineyard’s CRE loan assets as a
percentage of capital significantly exceeded these supervisory
benchmarks. Although OCC examiners identified Vineyard’s
concentration risk in those years, they deemed the bank’s practices
to be safe and sound and assigned Vineyard a CAMELS composite
rating of 2. OCC also did not direct Vineyard to limit its exposure
by decreasing its growth and concentration in CRE loans.

When asked why not, an OCC official told us that—based on the
information reviewed at the time—OCC examiners concluded that
the bank had satisfactory credit risk management, as indicated in
the 2007 ROE. Furthermore, the OCC official said the guidelines
were only indicators, and that if a bank exceeded the guidelines it
could do so as long as it had stronger risk management controls. In
this regard, OCC considered Vineyard to have the necessary risk
management controls in place to handle the high concentration.
During the examination, examiners found that Vineyard had
established concentration limits, monitored market conditions to
manage concentration risk, and were sending detailed lending
reports to the board. The examiners did identify several matters
requiring attention to further improve the bank’s credit risk
management processes.

We believe that OCC should have reached a different conclusion by
2007 about the adequacy of Vineyard’s risk management controls
based on our review of the supervisory record and on the fact that
Vineyard’s failure resulted primarily from loan losses stemming
from its high concentration in CRE loans. In the 2007 ROE, OCC
concluded that credit administration was satisfactory, yet identified
some credit risk management practices as MRAs. Specifically, OCC
criticized Vineyard for its failure to obtain sufficient information
about the financial condition of borrowers, principals, and
guarantors, and warned that if not addressed the bank could be
exposed to additional credit risk and asset problems, especially if
home sales remained slow or worsened. OCC ended up repeating
the MRA in its 2008 ROE, in which examiners wrote that
Vineyard’s concentration levels were unsafe and unsound. The
examiners concluded that bank management did not adequately

Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 18
manage concentration risk, given its slowness to reduce the high
concentration levels when the real estate market began weakening
in mid-2006.

OCC’s enforcement action policy states that problems or
weaknesses should be dealt with early, before they develop into
more serious supervisory issues or adversely affect a bank’s
performance and viability. We believe OCC should have considered
an enforcement action as a result of its 2007 examination, when
examiners identified continued concerns with Vineyard’s high-risk
concentration first noted in its 2006 preconversion examination
and warned that the weakening real estate market could lead to
substantial increases in problem assets.

OCC Took Enforcement Action in July 2008

OCC began a full-scope examination of Vineyard in March 2008. In
the 2008 ROE, OCC took a much stronger stance toward Vineyard
than in the prior examination after the examiners found that credit
underwriting had become more liberal, previously identified credit
risk management weaknesses had not been addressed, the bank’s
asset quality had deteriorated significantly, and its overall condition
had become unsatisfactory. OCC downgraded Vineyard’s CAMELS
composite rating to 4 from 2 and initiated a consent order. The
examiners attributed Vineyard’s deterioration to its rapid growth
and excessive concentration in CRE loans, which OCC had not
previously required the bank to reduce until the 2008 examination.
They also determined that Vineyard’s board and former CEO had
been deficient in their oversight of the bank’s direction and allowed
weak credit risk management practices during the bank’s rapid
growth. In summary, although the examination record did not
document a material change in the way the bank operated from the
prior examination, the examiners reached different, and we believe
well-supported, conclusions about the bank’s condition.

On May 5, 2008, OCC designated Vineyard in troubled condition
and entered into a consent order (a formal enforcement action)
with the bank on July 22, 2008. The purpose of the consent order
was to address Vineyard’s deficiencies in management, capital,
asset quality, earnings, and liquidity within specified timeframes.
The consent order required Vineyard to appoint a permanent CEO

Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 19
                       and chief credit officer, maintain certain capital ratios, develop a
                       3-year capital plan, revise its ALLL methodology, address
                       concentrations of credit, adhere to its own underwriting policy,
                       adequately risk-rate loans, establish a loan review system, and take
                       prompt action to protect its interest in criticized assets.

                       On July 28, 2008, OCC transferred supervision of Vineyard to its
                       Special Supervision Division in Washington, D.C., which directed
                       overall supervision of the bank until it was closed on July 17,
                       2009. 12 Because conditions at Vineyard had already begun to
                       deteriorate rapidly before the transfer, there was little the Special
                       Supervision Division could do to rehabilitate the bank.

                       Vineyard ultimately did not comply with many of the consent
                       order’s requirements. The bank’s problems were too large and too
                       severe to resolve without substantial additional capital. On
                       August 27, 2008, OCC downgraded Vineyard’s overall CAMELS
                       rating to 5. The component ratings for asset quality, management,
                       earnings, liquidity, and sensitivity to market risk were also
                       downgraded to 5. OCC examiners concluded that Vineyard’s
                       financial condition was critically deficient, as evidenced by
                       Vineyard’s deteriorated asset quality, significant losses, diminished
                       earnings, eroded capital, and strained liquidity. They notified
                       Vineyard that its failure was highly probable without outside
                       financial assistance. Vineyard was unsuccessful in finding investors
                       to inject capital into the bank.

                       OCC Began PCA After Vineyard’s Capital Levels Fell

                       The purpose of PCA is to resolve the problems of insured
                       depository institutions with the least possible long-term loss to the
                       Deposit Insurance Fund. PCA requires federal banking agencies to
                       take certain actions when an institution’s capital drops to certain
                       levels. PCA also gives regulators flexibility to discipline institutions
                       based on criteria other than capital levels to help reduce deposit
                       insurance losses caused by unsafe and unsound practices.




12
  The role of the Special Supervision Division is to supervise problem banks through rehabilitation or
through other resolution processes such as the sale, merger, or liquidation of such institutions.

                       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 20
OCC implemented PCA as described below.

•   As authorized by PCA, OCC’s July 2008 consent order with
    Vineyard, among other things, resulted in the reclassification of
    the bank’s capital category from well capitalized to adequately
    capitalized based on its June 30, 2008, call report. Because of
    the adequately capitalized designation, OCC prohibited Vineyard
    from accepting or renewing brokered deposits without a waiver
    from FDIC and from offering excessive interest rates on
    deposits. In August 2008, OCC examiners found that Vineyard
    had violated this regulation by offering interest rates above
    prevailing market rates and ordered the bank to stop. Vineyard
    complied with OCC’s demand.

•   On May 1, 2009, OCC timely notified Vineyard that it had fallen
    into the significantly undercapitalized PCA category based on
    the bank’s March 31, 2009, call report. The PCA required
    Vineyard to file a capital restoration plan with OCC no later than
    May 18, 2009. Vineyard, however, never submitted a capital
    restoration plan. On May 15, 2009, Vineyard informed OCC
    that neither the bank nor its holding company could raise
    sufficient capital to become adequately capitalized within a
    realistic timeframe.

•   On June 18, 2009, OCC notified Vineyard that it was critically
    undercapitalized based on the bank’s May 31, 2009, financial
    information. Vineyard had incurred losses that depleted all of its
    capital. PCA mandates that a critically undercapitalized bank be
    put into receivership or conservatorship with the concurrence of
    FDIC within 90 days after it becomes critically undercapitalized.
    OCC appointed FDIC as receiver for Vineyard on July 17, 2009.

OCC Lessons-Learned Review Is Not Yet Complete

According to OCC headquarters officials, an internal lessons-
learned review of Vineyard’s failure had not been completed at the
time of our review. The purpose of the review is to assess both the
causes of the failure and OCC’s supervision of the bank.




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 21
Conclusions and Recommendations
                      Our material loss review of Vineyard is the 11th such review we
                      have performed of a failed OCC-regulated financial institution
                      during the current financial crisis. Appendix 6 lists the other 10
                      material loss reviews and our associated recommendations. With
                      one exception noted in the appendix, OCC management agreed
                      with the prior recommendations and has taken action or is taking
                      corrective actions to address them.

                      Vineyard is the second OCC-regulated failed bank we have
                      reviewed where the bank failed within a relatively short timeframe
                      after it was converted to a nationally chartered bank. In our
                      January 2010 material loss review of the failed Silverton Bank,
                      N.A. (Silverton), we found OCC approved Silverton’s conversion to
                      a nationally chartered bank in August 2007, despite significant
                      weaknesses identified by OCC examiners during a preconversion
                      examination and the declining housing market. 13 In our Silverton
                      report, we recommended that OCC promptly assign an examiner-in-
                      charge and ensure continuous supervisory coverage of converted
                      institutions, to include the timely initiation of the first full-scope
                      examination after conversion. This recommendation was made in
                      response to a gap in supervision identified with Silverton. In
                      contrast, the supervision of Vineyard was continuous before and
                      after conversion.

                      We also recommended in the report on Silverton that OCC should
                      ensure that appropriate actions are taken to amend or reinforce
                      OCC guidance in response to the lessons learned review of the
                      Silverton failure. In particular, OCC should (1) determine that banks
                      seeking conversion to a national charter satisfactorily address
                      significant deficiencies identified by OCC or prior regulators before
                      approval and (2) formalize the process for second level reviews of
                      charter conversions. In its response, OCC acknowledged that
                      stronger controls are needed to ensure the clarity of its charter
                      conversion process. Based on our review of the Vineyard charter
                      conversion process, we reaffirm our prior recommendations and the


13
  OIG, Safety and Soundness: Material Loss Review of Silverton Bank, N.A., OIG-10-033 (Jan. 22,
2010).

                      Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 22
need for OCC to take corrective action. We are not making any
new recommendations from our material loss review of Vineyard.

OCC acknowledged our reaffirmation of the two prior
recommendations relating to the charter conversion process. OCC
also stated that appropriate steps have been taken to address the
recommendations.


                                  ******

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Mark Ossinger, Audit Manager,
at (617) 223-8643. Major contributors to this report are listed in
appendix 8.


/s/
Donald P. Benson
Audit Director




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 23
                        Appendix 1
                        Objectives, Scope, and Methodology


                        We conducted this material loss review of Vineyard Bank, N.A.
                        (Vineyard), Corona, California, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 14 This section
                        provides that if a deposit insurance fund incurs a material loss with
                        respect to an insured depository institution, the inspector general
                        for the appropriate federal banking agency is to prepare a report to
                        the agency, which shall

                        •    ascertain why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    review the agency’s supervision of the institution, including
                             implementation of the prompt corrective action provisions of
                             section 38; and
                        •    make recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Vineyard based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of August 7, 2009, FDIC estimated that Vineyard’s failure would
                        cost the Deposit Insurance Fund $572.8 million. As of
                        December 31, 2009, FDIC estimated that the loss to the Deposit
                        Insurance Fund would be $597 million.

                        Our objectives were to determine the cause of Vineyard’s failure
                        and assess the bank’s supervision by the Office of the Comptroller
                        of the Currency (OCC). To accomplish our review, we conducted
                        fieldwork at OCC headquarters in Washington, D.C., its district
                        office in Denver, Colorado, and its field office in Carlsbad,
                        California. We also performed work and interviewed officials at
                        FDIC’s Division of Resolutions and Receiverships in Irvine,
                        California.

                        To assess the adequacy of OCC’s supervision of Vineyard, we
                        determined (1) when OCC first identified safety and soundness

14
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 24
Appendix 1
Objectives, Scope, and Methodology


problems at Vineyard, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also determined whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. We performed the following work:

•   We determined that the time period relating to OCC’s
    supervision of Vineyard covered by our audit would be May
    2006 through Vineyard’s failure on July 17, 2009. This period
    included a preconversion examination prior to Vineyard’s
    conversion from a state-chartered institution to a national
    banking association, two full-scope safety and soundness
    examinations, and two targeted safety and soundness
    examinations performed subsequent to becoming a national
    banking association.

•   We reviewed OCC’s preconversion examination report,
    supporting documentation, and related correspondence. We
    performed this review to gain an understanding of any issues
    identified and the approach and methodology OCC used to
    assess the bank’s condition and subsequent approval of the
    bank for a national charter.

•   We analyzed OCC’s postconversion reports of examination,
    supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OCC used to assess the bank’s condition, and
    the regulatory action OCC used to compel bank management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.

•   We interviewed and discussed various aspects of OCC’s
    supervision of Vineyard with OCC officials, examiners, and
    attorneys to obtain their perspectives on the bank’s condition
    and the scope of the examinations.



Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 25
Appendix 1
Objectives, Scope, and Methodology



•   We interviewed an official from the California Department of
    Financial Institutions (DFI) and FDIC’s Division of Supervision
    and Consumer Protection responsible for supervision of the
    bank before its conversion to a national banking association in
    2006. We also reviewed reports of examination prepared by
    FDIC and DFI for Vineyard prior to its conversion to a national
    charter, to gain an understanding of its assessment of the
    bank’s condition.

•   We interviewed personnel with FDIC’s Division of Resolutions
    and Receiverships who were involved in the receivership
    process, which was conducted after Vineyard’s closure and
    FDIC’s appointment as receiver.

•   We reviewed reports of bank holding company inspection
    prepared by the Federal Reserve Bank of San Francisco (FRB) to
    gain an understanding of its assessment of the condition of
    Vineyard’s holding company. We did not interview FRB officials.

We conducted our fieldwork from August 2009 through January
2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 26
Appendix 2
Background


History of Vineyard Bank, N.A.

Vineyard Bank, N.A. (Vineyard), Corona, California, was
established in September 1981. Vineyard converted to a state-
chartered bank in August 2001 and converted back to a nationally
chartered bank in May 2006. From September 2006 through March
2009, OCC collected fees from national banks totaling $2.1 billion,
of which Vineyard paid $1.4 million. At the time of its failure, on
July 17, 2009, Vineyard had approximately $1.7 billion in assets
and 18 banking locations, including its main office. It had offices in
the inland and coastal areas of southern California, as well as one
banking location in the San Francisco area.

Vineyard was the principal asset and a wholly owned subsidiary of
Vineyard National Bancorp, a financial holding company. Vineyard
National Bancorp was also the sole stockholder of 1031 Exchange
Advantage, Inc., and 1031 Funding & Reverse Corp. (collectively,
the Exchange Companies) and 10 unconsolidated statutory
business trust subsidiaries created to raise capital for the bank.
Vineyard National Bancorp’s common stock was listed on
NASDAQ, and its Series D preferred stock was listed on the NYSE
Amex. The company was delisted from both exchanges in April
2009.

Appendix 4 contains a chronology of significant events regarding
Vineyard.

Types of Examinations Conducted by OCC

OCC conducts various types of examinations, including full-scope
on-site examinations. A full-scope examination is a combined
examination of the institution’s safety and soundness, compliance
with regulations, and information technology (IT) systems.

The safety and soundness portion of the examination includes a
review and evaluation of the six CAMELS components: Capital
adequacy, Asset quality, Management administration, Earnings,
Liquidity, and Sensitivity to market risk. OCC assigns the bank a
rating for each component and a composite rating based on its
assessment of the overall condition of the bank and its level of
supervisory concern. The compliance portion of the examination
includes an assessment of how well the bank manages compliance
Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 27
Appendix 2
Background


with various consumer protection laws and related regulations,
such as the Truth in Lending Act, the Truth in Savings Act, and the
Bank Secrecy Act. The IT portion of the examination evaluates the
overall performance of IT within the institution and the institution’s
ability to identify, measure, monitor, and control technology-related
risks.

OCC also conducts targeted examinations. A targeted examination
is any examination that does not fulfill all the statutory
requirements of a full-scope examination.

OCC must schedule full-scope, on-site examinations of insured
banks once during either a 12-month or 18-month cycle. OCC is to
conduct examinations on a 12-month cycle until a bank’s
management has demonstrated its ability to operate the institution
in a safe and sound manner and satisfied all conditions imposed at
the time of approval of its charter. Once a bank meets these
criteria, OCC may use an 18-month examination cycle if the bank

• has total assets of less than $500 million;
• is well-capitalized;
• at its most recent examination received a:
    Management component rating of 1 or 2, and
    Composite rating of 1 or 2; and
• is not currently subject to a formal enforcement proceeding or
  order by the Federal Deposit Insurance Corporation, OCC, or the
  Federal Reserve Board; and
• has not undergone a change in control during the 12-month
  period since completion of the last full-scope, on-site
  examination.

Enforcement Actions Available to OCC

OCC examinations of banks result in the issuance of reports of
examinations (ROE) that identify any areas of concern. OCC uses
informal and formal enforcement actions to address violations of
laws and regulations and to address unsafe and unsound practices.

Informal Enforcement Actions

OCC may use informal enforcement actions when a bank’s overall
condition is sound, but it is necessary to obtain written
Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 28
                        Appendix 2
                        Background


                        commitments from a bank’s board of directors or management to
                        ensure that it will correct problems and weaknesses. Informal
                        enforcement actions provide a bank with more explicit guidance
                        and direction than a ROE normally contains but are generally not
                        legally binding. Informal enforcement actions include commitment
                        letters and memoranda of understanding. Also included are safety
                        and soundness plans authorized by 12 C.F.R. Part 30. Informal
                        enforcement actions are not disclosed to the public.

                        Formal Enforcement Actions

                        Formal enforcement actions are authorized by statute, generally
                        more severe than informal actions, and disclosed to the public.
                        Formal enforcement actions are enforceable under the Federal
                        Deposit Insurance Act. They are appropriate when a bank has
                        significant problems, especially when there is a threat of harm to
                        the bank, depositors, or the public. OCC is to use formal
                        enforcement actions when informal actions are considered
                        inadequate, ineffective, or otherwise unlikely to influence bank
                        management and board members to correct identified problems and
                        concerns in the bank’s operations. Because formal actions are
                        enforceable, OCC can assess civil money penalties against banks
                        and individuals for noncompliance with a formal agreement or final
                        order. OCC can also request a federal court to require the bank to
                        comply with an order. Formal enforcement actions include consent
                        orders, cease and desist orders, formal written agreements, and
                        prompt corrective action directives.

                        OCC Enforcement Guidelines

                        Factors used in determining whether to use informal action or
                        formal action include the following:

                        •   the overall condition of the bank;
                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;
                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and
                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 15

15
     OCC Policies and Procedures Manual 5310-3 (Rev).

                        Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 29
                   Appendix 3
                   Glossary of Terms


Allowance for loan and              An estimate of uncollectible amounts that is used
lease losses                        to reduce the book value of loans and leases to the
                                    amount that is expected to be collected. It is
                                    established in recognition that some loans in the
                                    institution’s overall loan and lease portfolio will not be
                                    repaid.

Brokered deposit                    Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. The bank solicits deposits by
                                    offering rates of interest that are significantly higher
                                    than the rates offered by other insured depository
                                    institutions in its normal market area. Use of brokered
                                    deposits is limited to well-capitalized insured
                                    depository institutions and, with a waiver from the
                                    Federal Deposit Insurance Corporation (FDIC), to
                                    adequately capitalized institutions. Undercapitalized
                                    institutions are not permitted to accept brokered
                                    deposits. (See 12 U.S.C. § 1831(f) and 12 C.F.R.
                                    337.6.)

Call report                         A quarterly report of income and financial condition
                                    that banks file with their regulatory agency. The
                                    contents of a call report include consolidated detailed
                                    financial information on assets, liabilities, capital, and
                                    loans to executive officers, as well as income,
                                    expenses, and changes in capital accounts.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: capital adequacy, asset quality,
                                    management, earnings, liquidity, and sensitivity to
                                    market risk. Numerical values range from 1 to 5,
                                    with 1 being the best rating and 5 being the worst.

Capital restoration plan            A plan submitted to the appropriate federal banking
                                    agency by an undercapitalized insured depository
                                    institution. A capital restoration plan specifies the
                                    steps the insured depository institution is to take to
                                    become adequately capitalized, the levels of capital to
                                    be attained during each year in which the plan is in
                                    effect, how the institution is to comply with the
                                    restrictions or requirements then in effect, the types
                                    and levels of activities in which the institution is to

                   Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 30
                     Appendix 3
                     Glossary of Terms


                                      engage, and any other information that the federal
                                      banking agency may require.

Commercial real estate loans          Loans for real property where the primary or
                                      significant source of repayment is from rental income
                                      associated with the property or the proceeds of the
                                      sale, refinancing, or permanent financing of the
                                      property. Commercial real estate loans include loans
                                      for construction and real estate development, land
                                      development, and commercial properties such as office
                                      buildings and shopping centers.

Concentration (of credit)             A situation where direct, indirect, or contingent
                                      obligations exceed 25 percent of a bank's capital
                                      structure.

Concentration risk                    Risk in a loan portfolio that arises when a
                                      disproportionate number of an institution’s loans are
                                      concentrated in one or a small number of financial
                                      sectors, geographical areas, or borrowers.

Consent order                         The title given by the Office of the Comptroller of the
                                      Currency (OCC) to a cease and desist order that is
                                      entered into and becomes final through the board of
                                      directors’ execution, on behalf of the bank, of a
                                      stipulation and consent document. Its provisions are
                                      set out in article-by-article form, and it prescribes
                                      restrictions and remedial measures necessary to
                                      correct deficiencies or violations in the bank in order to
                                      return it to a safe and sound condition.

Division of Resolutions               A division within FDIC that is charged with
and Receiverships                     resolving failing and failed financial institutions,
                                      including ensuring that depositors have prompt access
                                      to their insured funds.

Federal Home Loan Bank                A bank within the Federal Home Loan Bank (FHLB)
                                      System, which consists of 12 regional banks from
                                      which local member institutions borrow funds to
                                      finance housing, economic development,
                                      infrastructure, and jobs. The system provides liquidity
                                      to member institutions that hold mortgages in their
                     Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 31
                  Appendix 3
                  Glossary of Terms


                                   portfolios and facilitates the financing of mortgages by
                                   making low-cost loans, called advances, to members.
                                   Advances are available to members with a wide
                                   variety of terms to maturity, from overnight to long
                                   term, and are collateralized. Advances are designed to
                                   prevent any possible loss to FHLBs, which also have a
                                   super lien (a lien senior or superior to all current and
                                   future liens on a property or asset) when institutions
                                   fail. To protect their position, FHLBs have a claim on
                                   any of the additional eligible collateral in the failed
                                   bank. In addition, FDIC has a regulation that reaffirms
                                   FHLB priority, and FHLBs can demand prepayment of
                                   advances when institutions fail.

Full-scope examination             Examination activities performed during the
                                   supervisory cycle that (1) are sufficient in scope to
                                   assign or confirm a bank’s CAMELS composite and
                                   component ratings; (2) satisfy core assessment
                                   requirements; (3) result in conclusions about a bank’s
                                   risk profile; (4) include onsite supervisory activities;
                                   and (5) generally conclude with the issuance of a
                                   report of examination.

Loan-to-value ratio                A ratio for a single loan and property calculated by
                                   dividing the total loan amount at origination by the
                                   market value of the property securing the credit plus
                                   any readily marketable collateral or other acceptable
                                   collateral. In accordance with Interagency Guidelines
                                   for Real Estate Lending Policies, institutions’ internal
                                   loan-to-value limits should not exceed the legal lending
                                   limit: (1) 65 percent for raw land; (2) 75 percent for
                                   land development; (3) 80 percent for commercial,
                                   multifamily, and other nonresidential loans; and (4) 85
                                   percent for one-family to four-family residential loans
                                   The guidelines do not specify a limit for owner-
                                   occupied one-family to four-family properties and
                                   home equity loans. However, when the loan-to-value
                                   ratio on such a loan equals or exceeds 90 percent at
                                   the time of origination, the guidelines state that the
                                   bank should require mortgage insurance or readily
                                   marketable collateral.


                  Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 32
                   Appendix 3
                   Glossary of Terms


Matter requiring attention          A bank practice noted during an examination that
                                    deviates from sound governance, internal control, and
                                    risk management principles, which may adversely
                                    affect the bank’s earnings or capital, risk profile, or
                                    reputation if not addressed. It may also result in
                                    substantive noncompliance with laws and regulations,
                                    internal policies or processes, OCC supervisory
                                    guidance, or conditions imposed in writing in
                                    connection with the approval of any application or
                                    other request by a bank. Matters requiring attention
                                    are not enforcement actions, but failure by a bank’s
                                    board and management to address a matter requiring
                                    attention could lead to an enforcement action.

Nonrecourse loan                    A loan that is secured by collateral (e.g., a home or
                                    building), but for which the borrower is not held
                                    personally liable. If the lender seizes the property and
                                    the sale does not cover the loan, the borrower is not
                                    responsible for the shortfall.

Prompt corrective action            A framework of supervisory actions for insured banks
                                    that are not adequately capitalized. It was intended to
                                    ensure that action is taken when an institution
                                    becomes financially troubled in order to prevent a
                                    failure or minimize resulting losses. These actions
                                    become increasingly severe as a bank falls into lower
                                    capital categories. The capital categories are well-
                                    capitalized, adequately capitalized, undercapitalized,
                                    significantly undercapitalized, and critically
                                    undercapitalized. (See 12 U.S.C. § 1831o.)

                                    The prompt corrective action minimum capital
                                    requirements are as follows:




                   Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 33
                        Appendix 3
                        Glossary of Terms




                                             Total                Tier 1/              Tier 1/
                     Capital category        risk-based           risk-based           leverage
                     Well-capitalizeda       10% or         and 6% or           and 5% or greater
                                             greater              greater
                     Adequately              8% or          and 4% or           and 4% or greater
                     capitalized             greater              greater             (3% for 1-rated)
                     Undercapitalized        Less           or    Less          or    Less than 4% (except
                                             than 8%              than 4%             for 1-rated)
                     Significantly           Less           or    Less          or    Less than 3%
                     undercapitalized        than 6%              than 3%
                     Critically              Has a ratio of tangible equity to total assets that is equal
                     undercapitalized        to or less than 2 percent. Tangible equity is defined in
                                             12 C.F.R. § 565.2(f).
                 a
                  To be well-capitalized, a bank also cannot be subject to a higher capital requirement imposed
                 by OCC.


Proxy contest                            A shareholder challenge to an action or the control of
                                         corporate management accomplished through the
                                         solicitation of proxies from other shareholders.

Risk-rate                                A bank’s internal rating that summarizes the risk of
                                         loss due to failure by a given borrower to pay as
                                         promised.

Safety and soundness                     The part of an examination that includes a review and
examination                              evaluation of each CAMELS component rating (see
                                         explanation of CAMELS above).

Tier 1 capital                           Common shareholder’s equity (common stock, surplus,
                                         and retained earnings), noncumulative perpetual
                                         preferred stock, and minority interests in the equity
                                         accounts of consolidated subsidiaries.

Troubled condition                       A national bank is in troubled condition if it (1) has a
                                         composite CAMELS rating of 4 or 5; (2) is subject to a
                                         cease and desist order, a consent order, or a formal
                                         written agreement, unless otherwise informed in
                                         writing by the OCC; or (3) has been informed by the
                                         OCC that, as a result of an examination, it has been
                                         designated in troubled condition.

Risk-based capital                       A measure of a bank's financial strength, taking into
                                         account capital reserves for loans, investments, and

                        Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 34
                    Appendix 3
                    Glossary of Terms


                                     certain other items off the balance sheet. In general,
                                     assets with higher credit risk require more capital in
                                     reserve than low-risk assets. The aim of risk-based
                                     capital is to (1) encourage banks to keep a sufficient
                                     cushion of equity capital, including common stock, to
                                     support balance sheet assets; (2) include off-balance
                                     sheet items in the computation of capital adequacy;
                                     (3) eliminate disincentives to holding low-risk, liquid
                                     assets; and (4) set uniform international guidelines for
                                     bank capital adequacy.

Uniform Bank Performance             An analytical tool created by the Federal Financial
Report                               Institutions Examinations Council to help supervise and
                                     examine financial institutions. A Uniform Bank
                                     Performance Report is produced quarterly for each
                                     commercial bank that is supervised by the Board of
                                     Governors of the Federal Reserve System, FDIC, or
                                     OCC. The performance and composition data in the
                                     report are presented in the form of ratios, percentages,
                                     and dollar amounts and are computed mainly from call
                                     reports submitted by the bank. The Uniform Bank
                                     Performance Report also compares a bank’s
                                     performance and balance sheet structure with those of
                                     similarly sized banks.

Wholesale funding                    Funding obtained by financial institutions through such
                                     sources as federal funds, public funds, FHLB
                                     advances, the Federal Reserve’s primary credit
                                     program, foreign deposits, and brokered deposits, and
                                     deposits obtained through the Internet or certificate of
                                     deposit listing services.




                    Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 35
                      Appendix 4
                      Chronology of Significant Events


The following chronology describes significant events in the history of Vineyard Bank,
N.A. (Vineyard), including examinations conducted and enforcement actions taken by
the Office of the Comptroller of the Currency (OCC). Appendix 5 contains additional
information on the results of examinations, including any significant safety and
soundness matters requiring attention, and recommended actions.

Date          Event
9/11/1981     The bank is established under the original name of Vineyard National Bank.
8/3/2001      Vineyard National Bank changes its name to Vineyard Bank. The bank’s primary
              federal banking regulator changes from OCC to the Federal Deposit Insurance
              Corporation (FDIC).
10/29/2001    The California Department of Financial Institutions (DFI) and FDIC conduct a joint
              examination of Vineyard Bank. The examination finds the following: (1) the board
              places an emphasis on growth as opposed to controls, (2) internal audit
              independence and scope are inadequate, (3) accounting controls and administrative
              controls need improvement, and (4) earnings potentially may not fully support
              operations. DFI and FDIC assign Vineyard Bank a CAMELS composite rating of 3.
3/8/2002      Vineyard Bank, DFI, and FDIC enter into a memorandum of understanding (MOU)
              aimed at addressing less than satisfactory conditions detailed in the 2001 joint DFI
              and FDIC report of examination (ROE).
11/4/2002     DFI and FDIC conduct a joint examination of Vineyard Bank. The examination finds
              that bank management has adequately addressed all provisions of the March 2002
              MOU. The examination concludes that the overall condition of the bank has improved
              and is satisfactory. DFI and FDIC assign Vineyard Bank a CAMELS composite rating
              of 2.
7/4/2003      Vineyard Bank acquires Southland Business Bank of Irwindale, California.
11/3/2003     DFI and FDIC conduct a joint examination of Vineyard Bank. The examination finds
              the risk profile of the bank to have increased to a level that warrants concern
              because of large construction loan concentration, rapid asset growth, substantial
              reliance on volatile funding, and inadequate risk management practices. DFI and FDIC
              assign Vineyard Bank a CAMELS composite rating of 3.
7/7/2004      Vineyard Bank, DFI, and FDIC enter into an MOU to correct the unsatisfactory
              conditions detailed in the 2003 ROE.
1/10/2005     DFI and FDIC conduct a joint examination of Vineyard Bank. The examiners conclude
              that the overall condition of the bank has improved but continue to have concerns
              about the bank’s significant asset growth in construction loans and its credit
              administration practices. In addition, the examiners concluded that the performance
              of the bank’s board and management is not fully satisfactory and that further efforts
              are necessary to comply fully with the 2004 MOU. DFI and FDIC assign Vineyard
              Bank a CAMELS composite rating of 2.
5/11/2005     The 2004 MOU between Vineyard Bank, DFI, and FDIC is terminated contingent
              upon the bank’s adoption of a board resolution.
5/25/2005     Vineyard Bank adopts a board resolution that is to remain in effect until completion
              of the next regularly scheduled joint DFI/FDIC examination. Among other things, the
              board resolves to seek an additional outside director, prepare a risk profile analysis
              for board approval prior to entering into a new business, restrict internal asset
              growth to 25 percent per year, and adopt a written 3-year strategic plan.
12/30/2005    Vineyard Bank submits an application for a national charter with OCC.

                      Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 36
                     Appendix 4
                     Chronology of Significant Events


Date         Event
4/18/2006    OCC conducts a preconversion examination of Vineyard Bank and assigns the bank a
             CAMELS composite rating of 2. The examiners conclude that the most significant
             concern regarding the bank is its large concentration in commercial real estate (CRE)
             loans, including speculative residential construction loans.
5/10/2006    Vineyard Bank changes its name to Vineyard Bank, N.A. (Vineyard). The bank’s
             primary federal banking regulator changes from FDIC to OCC.
8/1/2006     Vineyard acquires Rancho Bank of San Dimas, California.
4/2/2007     OCC begins a full-scope examination of Vineyard (2007 ROE). The bank’s CAMELS
             composite rating remains a 2 as a result of the examination. OCC examiners remain
             concerned about the bank’s large concentration in CRE loans, particularly its
             residential construction and land development loans, and with its dependence on
             credit-sensitive funding sources.
11/26/2007   OCC conducts a targeted review of Vineyard’s CRE loans. The examiners conclude
             that Vineyard is highly concentrated in CRE and that the risk associated with its loan
             portfolio is increasing. The examiners also identify weakness in the bank’s credit
             management.
1/23/2008    Vineyard’s former chief executive officer (CEO) resigns involuntarily. A board
             member becomes the interim CEO.
1/30/2008    Vineyard’s board approves a $20 million cash dividend to its holding company in
             violation of 12 U.S.C. § 60 and 12 C.F.R. § 5.64(b). In the 2008 ROE, OCC required
             that the holding company return the $20 million cash dividend to Vineyard. The
             holding company returned the $20 million cash dividend to Vineyard.
2/25/2008    Vineyard’s former CEO and one other shareholder initiate a proxy contest in an effort
             to amend the bank’s bylaws to elect an alternate slate of directors (if successful, the
             former CEO could return to his former position).
3/31/2008    OCC conducts a full-scope examination of Vineyard and assigns the bank a CAMELS
             composite rating of 4. The examiners conclude that Vineyard’s overall condition is
             unsatisfactory due to large CRE concentrations, weakening economic conditions,
             large allowance for loan and lease losses provisions, and costs associated with
             problem assets. The examiners also conclude that the bank’s risk profile is high,
             which could have an adverse effect on capital adequacy.
4/14/2008    Vineyard’s former CEO and one other shareholder announce that they have received
             enough proxies in favor of amending the bank’s bylaws, which allows them to elect a
             new slate of directors.
5/5/2008     OCC notifies Vineyard of its troubled condition status based on deficiencies revealed
             in OCC’s full-scope examination (2008 ROE).
7/15/2008    Vineyard’s former CEO submits a request to OCC for nonobjection under section 914
             of the Financial Institutions Reform, Recovery and Enforcement Act to once again
             become the CEO, director, and president of Vineyard. In a letter dated July 31,
             2008, OCC denies this request due to its determination that the former CEO lacks
             the competency to serve in that capacity.
7/22/2008    Vineyard enters into a consent order with OCC. The bank is classified as adequately
             capitalized for prompt corrective action (PCA) purposes. One provision of the consent
             order requires that Vineyard maintain a tier 1 risk-based capital ratio of 9 percent.
7/28/2008    OCC transfers supervision of Vineyard to the Special Supervision Division in
             Washington, D.C.



                     Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 37
                         Appendix 4
                         Chronology of Significant Events


Date             Event
8/5/2008         Vineyard holds its annual meeting of shareholders, where a vote is held on the
                 alternate slate of directors proposed during the proxy contest. The shareholders elect
                 five of the proposed directors; two of the current directors are also elected to serve
                 on the new board.
8/27/2008        OCC downgrades Vineyard’s CAMELS composite rating to 5. The examiners
                 conclude that Vineyard’s financial condition is critically deficient, as evidenced by the
                 bank’s deteriorated asset quality, significant losses, diminished earnings, eroded
                 capital, and strained liquidity. The examiners notify the bank that its failure is highly
                 probable without outside financial assistance.
11/3/2008        OCC conducts a targeted review of Vineyard’s asset quality and compliance with the
                 consent order. OCC assigns the bank a CAMELS composite rating of 5. The
                 examiners conclude that asset quality deterioration, significant liquidity concerns, and
                 capital inadequacies cause the bank to be in poor financial condition that threatens
                 its ongoing viability.
4/1/2009         Vineyard’s holding company discloses in a Securities and Exchange Commission filing
                 that substantial doubt exists about its ability to continue as a going concern. The
                 NASDAQ Stock Market delists the holding company’s common stock effective
                 May 29, 2009.
4/27/2009        OCC conducts a limited-scope examination of Vineyard and assigns a CAMELS
                 composite rating to 5. The examiners conclude that the bank’s asset quality has
                 deteriorated and that it is critically deficient, presenting an imminent threat to the
                 bank’s viability.
5/1/2009         OCC notifies Vineyard that it is significantly undercapitalized for PCA purposes. OCC
                 requires the bank to submit a capital restoration plan by May 18, 2009. The bank,
                 however, never submits a capital restoration plan to OCC.
6/18/2009        OCC notifies Vineyard that it is critically undercapitalized for PCA purposes and that
                 its CAMELS capital component is downgraded to 5.
7/17/2009        OCC closes Vineyard and appoints FDIC as receiver. FDIC estimates that the loss to
                 the Deposit Insurance Fund caused by this failure is $572.8 million.
Source: OIG analysis of OCC, FDIC, and Vineyard Bank, N.A. data.




                         Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 38
                    Appendix 5
                    Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions


This appendix summarizes the Office of the Comptroller of the Currency’s (OCC)
preconversion and safety and soundness examinations of Vineyard Bank, N.A.
(Vineyard) from March 2006 through March 2008 and provides information on the
significant results of those examinations. The significant results of the last
examination of Vineyard performed by the California Department of Financial
Institutions (DFI) and the Federal Deposit Insurance Corporation (FDIC) are also
summarized in this appendix to provide perspective on the long-term nature of some of
the bank’s issues. We list the following items from the reports of examination (ROE):
(1) matters requiring attention and (2) other issues. Generally, matters requiring
attention represent the most significant items requiring corrective action and are more
serious.


                                           Significant safety and soundness corrective
Date                                       actions and other issues cited in
examination   CAMELS        Assets         memorandum of understanding or reports              Enforcement
started       rating        ($ millions)   of examination                                      action
1/10/2005     2/223222        $1,294       Provisions in memorandum of                            MOU
(Performed                                 understanding (MOU) that required further            (effective
by DFI and                                 attention                                            7/7/2004)
FDIC before                                • Increase the board of directors by
conversion                                     adding one independent director through
to a                                           appointment or election at a regular or
national                                       special meeting of Vineyard’s
bank                                           shareholders.
charter)                                   • Implement a capital adequacy plan
                                               containing an analysis of the capital
                                               levels necessary to address the bank’s
                                               elevated risk profile. Ensure that the
                                               capital plan requires a quarterly review
                                               to ensure that adequate capital levels
                                               are maintained.
                                           • Restrict total asset growth to 25
                                               percent per year.
                                           • Revise, adopt, and implement written
                                               lending and collection polices to provide
                                               effective guidance and control over the
                                               bank’s lending function. Ensure such
                                               policies address concerns regarding
                                               concentrations of credit and
                                               underwriting deficiencies.
                                           • Revise asset liability management policy
                                               to
                                               o address the two interest rate risk
                                                    model scenarios,
                                               o establish more reasonable interest
                                                    rate risk limits,


                    Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 39
                    Appendix 5
                    Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions




                                           Significant safety and soundness corrective
Date                                       actions and other issues cited in
examination   CAMELS        Assets         memorandum of understanding or reports              Enforcement
started       rating        ($ millions)   of examination                                      action
                                               o   develop a more practical plan to
                                                   correct breaches of interest rate risk
                                                   limits,
                                               o establish specific requirements for
                                                   supporting interest rate risk
                                                   modeling assumptions, and
                                               o ensure that independent back-
                                                   testing is conducted.
                                           Other issues/recommendations in the FDIC
                                           ROE
                                           • Ensure that outsourced audit reports are
                                              received and responded to in a timely
                                              manner.
                                           • Perform and document risk assessment
                                              on individual positions within the bank
                                              and have the board of directors review
                                              and approve the results.
                                           • Perform and document a financial
                                              review of the bank’s vendors to assess
                                              vendors’ continuing ability to provide
                                              services to the bank.
3/6/2006      2/222222        $1,705       Corrective actions                                     None
(OCC                                       • Ensure that the appraisal ordering and
Conversion                                    review processes are clearly
Examination                                   independent and that appraisal reviews
Report)                                       provide more qualitative analysis.
                                           • Ensure that stress testing of
                                              commercial real estate loans is a
                                              vigorous process.
                                           • Strengthen the process to quantify the
                                              level of foreign wire activity.
                                           Other issues/recommendations
                                           • Develop contingency plans for
                                               responding to adverse commercial real
                                               estate market conditions in conjunction
                                               with the strategic planning process.
                                           • Consider including loan portfolio
                                               stratifications by concentration,
                                               industries, commercial real estate
                                               geography, and risk rating.
4/2/2007       2/222222       $2,251       Matters requiring attention                            None
(Performed                                 • Improve financial analysis of the
by OCC)                                       borrowers, principals, and guarantors in
                                              large-tract development, single-family


                    Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 40
                    Appendix 5
                    Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions




                                           Significant safety and soundness corrective
Date                                       actions and other issues cited in
examination   CAMELS        Assets         memorandum of understanding or reports              Enforcement
started       rating        ($ millions)   of examination                                      action
                                              construction, and land development
                                              loans.
                                           • Improve problem loan reporting. In
                                              assigning loan grades, expand
                                              evaluation of a borrower’s ability to
                                              carry a project when it needs additional
                                              funds for interest reserves or project
                                              completion. Develop support for reserve
                                              percentages assigned to criticized and
                                              classified pools.
                                           Other issues/recommendations
                                           • Continue the directors’ efforts to
                                              improve their qualifications for effective
                                              oversight of the company’s size, scope,
                                              and direction.
3/31/2008      4/444432       $2,340       Matters requiring attention                           Consent
(Performed                                 • Appoint a capable chief executive                    order,
by OCC)                                       officer and chief credit officer.                  effective
                                           • Ensure that capital ratios do not fall             7/22/2008
                                              below the following levels until the
                                              board ensures effective reduction in the
                                              overall risk profile and establishment of
                                              sound asset quality and profitability:
                                              o Tier 1 capital equal to at least 9
                                                   percent of adjusted total assets
                                                   (leverage ratio).
                                              o Total Tier 1 and Tier 2 capital equal
                                                   to at least 11 percent of risk-
                                                   weighted assets (total risk-based
                                                   capital ratio).
                                           • Ensure that the board develops and
                                              implements a 3-year capital plan to
                                              include
                                              o specific plans for the maintenance
                                                   of adequate capital,
                                              o projections for the sources and
                                                   timing of additional capital to meet
                                                   the bank's current and future
                                                   needs,
                                              o primary and contingent sources of
                                                   capital, and
                                              o a dividend policy that permits the
                                                   declaration of a dividend only when
                                                   the bank complies with its approved


                    Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 41
                   Appendix 5
                   Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions




                                          Significant safety and soundness corrective
Date                                      actions and other issues cited in
examination   CAMELS       Assets         memorandum of understanding or reports              Enforcement
started       rating       ($ millions)   of examination                                      action
                                                  capital program and with 12 U.S.C.
                                                  §§ 56 and 60 and has received
                                                  prior written approval by the OCC.
                                          •   Reassess the system for managing
                                              concentrations of credit and take action
                                              where necessary to make the system
                                              more effective. Ensure adherence to a
                                              written asset diversification program
                                              consistent with Concentrations of
                                              Credit (section 216) of the
                                              Comptroller’s Handbook. Vineyard
                                              should take actions that include, but are
                                              not limited to, the following:
                                              o Review current policies, processes,
                                                  and procedures to control and
                                                  monitor concentrations of credits.
                                                  Where concentration risk
                                                  management is deficient for
                                                  adequately controlling risk, revise
                                                  the area to ensure effectiveness.
                                                  Ensure appropriate attention to the
                                                  impact of commitments.
                                              o Review the balance sheet to
                                                  identify additional concentrations of
                                                  credit. Consider the existence of
                                                  any additional concentrations within
                                                  those already identified, such as
                                                  property types within commercial
                                                  real estate mortgages or
                                                  segmentation by geographic
                                                  location or submarket.
                                              o Provide written analysis of any
                                                  concentration of credit to identify
                                                  and assess the inherent credit,
                                                  liquidity, and interest rate risks.
                                                  Include management’s abilities and
                                                  the risk of factors beyond bank
                                                  control.
                                              o Establish safe and sound and formal
                                                  risk limits for each concentration
                                                  based on the above.
                                              o Ensure that an action plan is
                                                  approved by the board to reduce
                                                  the risk of any concentration
                                                  deemed imprudent in the above

                   Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 42
                   Appendix 5
                   Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions




                                          Significant safety and soundness corrective
Date                                      actions and other issues cited in
examination   CAMELS       Assets         memorandum of understanding or reports              Enforcement
started       rating       ($ millions)   of examination                                      action
                                                   analysis.
                                              o Ensure that future concentrations of
                                                   credit are subject to the same
                                                   analysis as above and that the
                                                   analysis demonstrates that the
                                                   concentration will not subject the
                                                   bank to undue credit, liquidity, or
                                                   interest rate risks.
                                          •   Adhere to sound underwriting practices
                                              by developing a policy for nonrecourse
                                              lending, including stricter guidelines
                                              than used previously. These should
                                              include, but are not limited to
                                              o higher debt service ratios,
                                              o lower loan-to-cost/loan-to-value
                                                   ratios,
                                              o larger cash equity requirements, and
                                              o financially capable sponsors with
                                                   incentives to support the debt.
                                          •   Ensure that loan officers and credit
                                              analysts obtain complete financial and
                                              income information and thoroughly
                                              analyze the sponsor/guarantor's cash
                                              flow sources and uses to evaluate their
                                              capacity to support projects. Ensure
                                              that management strengthens the
                                              annual review process for income-
                                              producing properties and track projects
                                              that require annual reviews.
                                          •   Revise the loan-grading policy and
                                              evaluate methods to ensure that
                                              officers can effectively grade credits.
                                          •   Ensure that credit administration
                                              strengthens its problem loan reports by
                                              including
                                              o specific reasons to support the loan
                                                   grade,
                                               o detailed action plans that include
                                                   timeframes and goals with borrower
                                                   commitments, and
                                               o triggers for potential risk-rating
                                                   upgrades or downgrades.
                                          •   Ensure compliance with the December
                                              13, 2006, interagency policy statement
                                              on allowances for loan and lease losses

                   Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 43
                   Appendix 5
                   Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions




                                          Significant safety and soundness corrective
Date                                      actions and other issues cited in
examination   CAMELS       Assets         memorandum of understanding or reports              Enforcement
started       rating       ($ millions)   of examination                                      action
                                             (ALLL):
                                             o Base analysis on an effective loan-
                                                  grading system.
                                             o Support the allocations for criticized
                                                  and classified loan pools with an
                                                  evaluation of the bank's industry
                                                  historic losses for each portfolio
                                                  segment adjusted for qualitative
                                                  factors that affect each segment.
                                             o Base analyses conducted in
                                                  accordance with Financial
                                                  Accounting Standards Board
                                                  Statement 114, Accounting by
                                                  Creditors for Impairment of a Loan,
                                                  on the source of repayment using
                                                  the discounted cash flow or
                                                  collateral liquidation method. Use
                                                  the discounted cash flow method
                                                  for tract development projects
                                                  where sales continue to occur and
                                                  the bank is still looking at these
                                                  sales to repay the loan.
                                             o Use the unallocated portion of loans
                                                  as part of the qualitative
                                                  adjustments. The amount should be
                                                  calculated, specifically supported,
                                                  and directionally consistent
                                                  between reporting periods.
                                             o Include a reasonable range for the
                                                  ALLL balance. This can be
                                                  determined by using estimated
                                                  ranges of inherent losses or
                                                  qualitative adjustments.
                                          • Develop enterprise-wide and
                                             standardized approaches to key
                                             information technology (IT) processes.
                                             The board must ensure that
                                             management develops an enterprise-
                                             wide approach to system monitoring,
                                             disaster recovery, vendor management,
                                             and quality assurance.
                                          Other issues/recommendations
                                          • Strengthen the annual review process
                                             for income producing properties in the
                                             permanent loan portfolio.

                   Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 44
                       Appendix 5
                       Vineyard Bank, N.A. Examinations, Significant Issues, and Enforcement Actions




                                              Significant safety and soundness corrective
Date                                          actions and other issues cited in
examination   CAMELS           Assets         memorandum of understanding or reports              Enforcement
started       rating           ($ millions)   of examination                                      action
                                              •   Clearly justify in appraisal review
                                                  reports the use of escrows and
                                                  document discussions with appraisers
                                                  when appraisal values are adjusted.
                                              •   Consider in ALLL analysis the results
                                                  from stress testing on multifamily and
                                                  commercial real estate portfolios.
                                              •   Increase IT management efforts to
                                                  ensure that IT staff complete routine
                                                  activities on time.
Source: OIG analysis of OCC ROEs.




                       Material Loss Review of Vineyard Bank, National Association (OIG-10-044)        Page 45
                          Appendix 6
                          Prior Material Loss Review Recommendations


Since November 2008, we have completed ten mandated material loss reviews of
failed banks regulated by the Office of the Comptroller of the Currency (OCC) in
addition to our review of Vineyard Bank, N.A. 16 This appendix provides
recommendations made to OCC resulting from these reviews. With one exception as
footnoted in this appendix, OCC management concurred with the recommendations
and has taken or planned corrective actions that are responsive to the
recommendations. In certain instances, the recommendations address matters that
require ongoing OCC management and examiner attention.

                                                          Recommendations to the Comptroller of the
     Report Title                                         Currency
     Safety and Soundness: Material Loss Review of        Re-emphasize to examiners that they must
     ANB Financial, NA, OIG-09-013 (Nov. 25, 2008)        closely investigate an institution’s circumstances
                                                          and alter the supervisory plan if certain
     OCC closed ANB Financial and appointed the           circumstances exist as specified in OCC’s
     Federal Deposit Insurance Corporation (FDIC) as      Examiner’s Guide to Problem Bank Identification,
     receiver on May 9, 2008. At that time, FDIC          Rehabilitation, and Resolution.
     estimated that ANB Financial’s failure would
     cost the Deposit Insurance Fund $214 million.        Re-emphasize to examiners that formal
     FDIC’s estimated cost to the Deposit Insurance       enforcement action is presumed warranted when
     Fund associated with ANB Financial’s failure         certain circumstances specified in OCC’s
     increased to $819 as of October 31, 2009.            Enforcement Action Policy (PPM 5310-3) exist.
                                                          Examiners should also be directed to document
                                                          in the examination files the reason for not taking
                                                          formal enforcement action if those
                                                          circumstances do exist.

                                                          Reassess guidance and examination procedures
                                                          in the Comptroller’s Handbook related to bank
                                                          use of wholesale funding with a focus on heavy
                                                          reliance on brokered deposits and other nonretail
                                                          deposit funding sources for growth.

                                                          Establish in policy a “lessons-learned” process to
                                                          assess the causes of bank failures and the
                                                          supervision exercised over the institution and to
                                                          take appropriate action to address any
                                                          significant weaknesses or concerns identified.
     Safety and Soundness: Material Loss Review of        Re-emphasize to examiners the need to ensure
     First National Bank of Nevada and First Heritage     that banks take swift corrective actions in
     Bank, NA, OIG-09-033 (Feb. 27, 2009)                 response to examination findings.

     OCC closed First National Bank of Nevada and         Re-emphasize to examiners OCC’s policy on the
     First Heritage Bank on July 25, 2008, and            preparation of supervision workpapers (that is,
     appointed FDIC as receiver. As of December 31,       workpapers are to be clear, concise, and readily
     2008, FDIC estimated a loss to the Deposit           understood by other examiners and reviewers).

16
     One material loss review was performed by a contractor under our supervision.

                          Material Loss Review of Vineyard Bank, National Association (OIG-10-044)    Page 46
                     Appendix 6
                     Prior Material Loss Review Recommendations


                                                     Recommendations to the Comptroller of the
Report Title                                         Currency
Insurance Fund of $706 million for First National
Bank of Nevada and $33 million for First
Heritage Bank.
Safety and Soundness: Material Loss Review of        Conduct a review of investments by national
the National Bank of Commerce, OIG-09-042            banks for any potential high-risk concentrations
(Aug. 6, 2009)                                       and take appropriate supervisory action.

OCC closed the National Bank of Commerce and         Reassess examination guidance regarding
appointed FDIC as receiver on January 16,            investment securities, including government-
2009. As of June 30, 2009, FDIC estimated            sponsored enterprise securities.
that the bank’s failure would cost the Deposit
Insurance Fund $92.5 million.
Safety and Soundness: Material Loss Review of        Caution examiners and their supervisors that it is
Ocala National Bank, OIG-09-043 (Aug. 26,            incumbent that they support and document
2009)                                                CAMELS ratings, including those that did not
                                                     change from prior examinations, and support
OCC closed Ocala National Bank and appointed         decisions not to take enforcement action.
FDIC as receiver on January 30, 2009. As of
August 7, 2009, FDIC estimated that the bank’s       Remind examiners that it is prudent to expand
failure would cost the Deposit Insurance Fund        examination procedures for troubled or high-risk
$99.6 million.                                       banks to review the appropriateness of (a)
                                                     dividends and (b) payments to related
                                                     organizations, particularly when the dividends or
                                                     payments may benefit bank management and
                                                     board members. OCC should reassess and revise
                                                     examination guidance related to when expanded
                                                     reviews of dividends and related organizations
                                                     should be performed.
Safety and Soundness: Material Loss Review of        Emphasize to examiners that matters requiring
TeamBank, National Association, OIG-10-001           attention are to be issued in reports of
(Oct. 7, 2009)                                       examination in accordance with the criteria
                                                     regarding deviations from sound management
OCC closed TeamBank, N.A., and appointed             and noncompliance with laws or policies listed in
FDIC as receiver on March 20, 2009. As of            the Comptroller’s Handbook.
September 18, 2009, FDIC estimated that the
bank’s failure would cost the Deposit Insurance      Emphasize to examiners the need to
Fund $98.4 million.
                                                     (a) adequately assess the responsibilities of a
                                                         controlling official (chief executive
                                                         officer/president, for example) managing the
                                                         bank to ensure that the official’s duties are
                                                         commensurate with the risk profile and
                                                         growth strategy of the institution;
                                                     (b) review incentive compensation and bonus
                                                         plans for executives and loan officers; and
                                                     (c) ensure that banks conduct transactional and
                                                         portfolio stress testing when appropriate.


                     Material Loss Review of Vineyard Bank, National Association (OIG-10-044)     Page 47
                          Appendix 6
                          Prior Material Loss Review Recommendations


                                                          Recommendations to the Comptroller of the
     Report Title                                         Currency
     Safety and Soundness: Material Loss Review of        Review OCC processes to ensure that more
     Omni National Bank, OIG-10-017 (Dec. 9, 2009)        timely enforcement action is taken once the need
                                                          for such action is identified. 17
     OCC closed Omni National Bank and appointed
     FDIC as receiver on March 27, 2009. As of            Impress upon examiner staff the importance of
     October 31, 2009, FDIC estimated that the            completing all activities in annual supervisory
     bank’s failure would cost the Deposit Insurance      cycles, including quarterly monitoring. In this
     Fund $288.2 million.                                 regard, supervisors should ensure that quarterly
                                                          monitoring activities are scheduled and carried
                                                          out.

                                                          Implement a policy for examiner-in-charge
                                                          rotation for midsize and community banks.
     Safety and Soundness: Material Loss Review of        Promptly assign an EIC and ensure continuous
     Silverton Bank, National Association,                supervisory coverage of converted institutions,
     OIG-10-033 (Jan. 22, 2010)                           to include the timely initiation of the first full-
                                                          scope examination after conversion.
     OCC closed Silverton Bank and appointed FDIC
     as receiver on May 1, 2009. As of October 31,        Ensure that appropriate actions are taken to
     2009, FDIC estimated that the bank’s failure         amend or reinforce OCC guidance in response to
     would cost the Deposit Insurance Fund $608.3         the lessons learned review of the Silverton
     million. FDIC also estimated an additional loss of   failure. In particular, OCC should (1) determine
     $649.6 million to its Transaction Account            that banks seeking conversion to a national
     Guarantee Program for a total loss of $1.26          charter satisfactorily address significant
     billion from Silverton’s failure.                    deficiencies identified by OCC or prior regulators
                                                          before approval and (2) formalize the process for
                                                          second level reviews of charter conversions.
     Safety and Soundness: Material Loss Review of        Due to the complexity of the risk-based capital
     Citizens National Bank, OIG-10-038 (Mar. 22,         treatment of structured investment securities,
     2010)                                                assess the adequacy of OCC Bulletin 2009-15,
                                                          Investment Securities, after it has been in use
     OCC closed Citizens National Bank and                for a reasonable time.
     appointed FDIC as receiver on May 22, 2009.
     As of January 29, 2010, FDIC estimated that          Work with OCC’s regulatory partners to
     the loss would be $26 million.                       determine whether to propose appropriate
                                                          legislation and/or change regulatory guidance to
                                                          establish limits or other controls for bank
                                                          investments.




17
  OCC did not agree with this recommendation. In its response to our report, OCC asserted that current
policies are sufficient to ensure that timely enforcement action is taken. We accepted its position with
respect to its current processes and consider the recommendation closed.

                          Material Loss Review of Vineyard Bank, National Association (OIG-10-044)       Page 48
                    Appendix 6
                    Prior Material Loss Review Recommendations


                                                    Recommendations to the Comptroller of the
Report Title                                        Currency
Safety and Soundness: Material Loss Review of       OCC work with its regulatory partners to
Union Bank, National Association,                   determine whether to propose legislation and/or
OIG-CA-10-009 (May 11, 2010) (Review                change regulatory guidance to establish limits or
performed by Mayer Hoffman McCann P.C., an          other controls for concentrations that pose an
independent certified public accounting firm,       unacceptable safety and soundness risk and
under the supervision of the Treasury Office of     determining an appropriate range of examiner
Inspector General)                                  response to high risk concentrations.

OCC closed Union Bank and appointed FDIC as
receiver on August 14, 2009. As of January 26,
2010, FDIC estimated that the bank’s failure
would cost the Deposit Insurance Fund $54.5
million.




                    Material Loss Review of Vineyard Bank, National Association (OIG-10-044)    Page 49
Appendix 7
Management Response




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 50
Appendix 8
Major Contributors to This Report




Boston Audit Office

Mark Ossinger, Audit Manager
Jenny Hu, Auditor-in-Charge
Joshua Lee, Auditor
Jason Madden, Auditor

Washington, DC

Rufus Etienne, Referencer




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 51
Appendix 9
Report Distribution


Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of Vineyard Bank, National Association (OIG-10-044)   Page 52
